<html>
<title> - SAUDI ARABIA: FRIEND OR FOE IN THE WAR ON TERROR?</title>
<body><pre>[Senate Hearing 109-836]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-836
 
           SAUDI ARABIA: FRIEND OR FOE IN THE WAR ON TERROR?

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2005

                               __________

                          Serial No. J-109-49

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
34-114                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   106
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     2
    prepared statement...........................................   112
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Bakali, Gulam, Secretary, Board of Trustees, Islamic Association 
  of North Texas, Richardson, Texas..............................    21
Cordesman, Anthony H., Arleigh A. Burke Chair in Strategy, Center 
  for Strategic and International Studies, Washington, D.C.......    15
Emerson, Steven, Executive Director, Investigative Project on 
  Terrorism, Washington, D.C.....................................    16
Glaser, Daniel L., Deputy Assistant Secretary, Office of 
  Terrorist Financing and Financial Crimes, Department of The 
  Treasury, Washington, D.C......................................     4
Shea, Nina, Director, Center for Religious Freedom, Freedom 
  House, Washington, D.C.........................................    19

                         QUESTIONS AND ANSWERS

Responses of Daniel Glaser to questions submitted by Senator 
  Specter........................................................    36

                       SUBMISSIONS FOR THE RECORD

Bakali, Gulam, Secretary, Board of Trustees, Islamic Association 
  of North Texas, Richardson, Texas, statement and attachments...    39
Cordesman, Anthony H., Arleigh A. Burke Chair in Strategy, Center 
  for Strategic and International Studies, Washington, D.C., 
  statement......................................................    45
Emerson, Steven, Executive Director, Investigative Project on 
  Terrorism, Washington, D.C., statement.........................    73
Glaser, Daniel L., Deputy Assistant Secretary, Office of 
  Terrorist Financing and Financial Crimes, Department of the 
  Treasury, Washington, D.C., statement..........................   107
Mansour, Sheikh Ahmed Subhy, Muslim scholar and human rights 
  activist, Alexandria, Virginia, statement......................   115
Middle East Media Research Institute (MEMRI), Yigal Carmon, 
  President, Washington, D.C., statement.........................   143
New York Sun, Daniel Pipes, March 29, 2005, article..............   151
Shea, Nina, Director, Center for Religious Freedom, Freedom 
  House, Washington, D.C., prepared statement....................   153
Woolsey, R. James, former Director of Central Intelligence, 
  statement......................................................   164


           SAUDI ARABIA: FRIEND OR FOE IN THE WAR ON TERROR?

                              ----------                              


                       TUESDAY, NOVEMBER 8, 2005

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
Room 226, Dirksen Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Present: Senators Specter, Kyl, Brownback, Leahy, and 
Schumer.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. It is 
9:30. The Judiciary Committee will now proceed with its hearing 
on the issue of Saudi Arabia and the efforts by Saudi Arabia, 
or to what extent Saudi Arabia is making efforts to combat 
terrorism with respect to the dissemination of information and 
propaganda to Saudis, school children, and people within the 
area of their influence.
    On July 25, Mr. Adel Al-Jubeir came to see me to discuss 
the Saudi Accountability Act, which I had introduced with some 
12 cosponsors, calling on the Saudis to implement their efforts 
to fight terrorism and to take active stands to stop the 
dissemination of anti-American, anti-Semitic, anti-Christian 
literature, and as a result of that meeting and certain 
representations made by Mr. Al-Jubeir, the hearing was 
scheduled by this Committee for October 25 and was postponed 
because of the imminence of hearings on Ms. Harriet Miers for 
the Supreme Court of the United States. Those hearings had been 
scheduled to start yesterday, and with a little time, 
collaboration with scheduling by the Ranking Member, we have 
put this item on our agenda.
    The seriousness of the issue of terrorism is one which need 
not be expounded upon at any time. Our relations with Saudi 
Arabia, the United States' relations with Saudi Arabia, are 
obviously of great importance to both countries for many, many 
reasons, but it is critical that we confront squarely the 
issues of the fight against terrorism and confront squarely the 
problems created by the dissemination of anti-U.S., anti-
Christian, anti-Semitic, anti-Western propaganda which is 
disseminated with the consent and apparent promotion of the 
Saudi government.
    My concerns go back to Khobar Towers and beyond. In the 
104th Congress, I chaired the Intelligence Committee and made a 
trip to Saudi Arabia to witness what had happened at Khobar 
Towers, talked to the Crown Prince, now the King of Saudi 
Arabia, and expressed concern about the refusal of the Saudis 
at that time to permit FBI agents investigating the terrorism 
which led to the death of 19 Americans and the wounding of 
hundreds, and the Saudis declined to permit the United States 
to conduct that investigation. There have been recurrent 
issues, and the one which we are looking at today, we believe 
is to be one of really very great importance.
    With only 2 minutes left, I am going to yield at this point 
to my distinguished Ranking Member, Senator Leahy.

STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I may not be quite 
as brief, but I do believe these are extremely important 
hearings.
    As a nation, we cannot defeat al Qaeda or Islamic 
extremists without the assistance of all our allies in the 
Middle East. We do recall, most of us do recall, that the 
Saudis were less than cooperative when the FBI sought to 
interview Saudi nationals as part of the Khobar Towers bombing 
which you referred to. The attacks of September 11, 2001, 
further strained our relationships with Saudi Arabia and they 
raised some very troubling questions about the Saudi 
government's commitment to fighting terrorism.
    There has been some progress, but I believe there is still 
considerable room for improvement in the Saudi government's 
current terrorism efforts. The 9/11 Commission noted in its 
final report that the problems in the U.S.-Saudi relationship 
must be confronted openly, but we have done little to openly 
confront the problems in that relationship.
    Critical information about the role of the government in 
Saudi Arabia before and after September 11 and its level of 
cooperation with U.S. law enforcement agencies before and after 
has been not revealed to the public. Democratic and Republican 
Senators have asked for it. The administration has denied the 
public its right to know these crucial facts. Even the former 
Ambassador from Saudi Arabia to the U.S. asked they be 
declassified.
    I must say, Mr. Glaser, I think the administration refuses 
to confront the Saudi government's role in promoting Islamic 
extremism. Particularly troubling has been the Saudi 
government's lavish funding of religious schools and madrasses 
throughout the region. They promulgate extreme forms of Islam 
and advocate hatred and violence. They are threatening the 
existence of more moderate beliefs and practices in the Muslim 
world. They foster anti-Western, anti-Semitic sentiments.
    More troubling is the strong link between madrasses and 
terrorist financing. It is widely known that the Saudi 
government has permitted and even encouraged fundraising by 
charitable Islamic groups and foundations that have been linked 
to known terrorist organizations. Even though they have 
announced restrictions to private charity organizations and 
relief groups sending funds overseas, the strict regulation of 
these restrictions remains to be seen.
    The President condemns many of the repressive policies of 
Arab nations. I agree with him, but he seems to have a blind 
spot when it comes to Saudi Arabia. Last month, he said, quote, 
``The United States makes no distinction between those who 
commit acts of terror and those who support and harbor them 
because they are equally guilty of murder.'' Strong rhetoric. 
But then President Bush and Secretary Rumsfeld praised Saudi 
Arabia, a monarchy that has done more to promote Islamic 
extremism and discourage the emergence of moderate Muslim 
leaders than any other nation.
    The President defends Saudi Arabia's record on civil 
liberties and religious freedoms, saying earlier this year 
that, quote, ``The Kingdom of Saudi Arabia recognizes the 
principle of freedom upon which the United States was founded, 
including the freedoms enshrined under the First Amendment of 
the United States Constitution.'' That is so outrageously off 
the mark that at first when I saw that, I thought somebody had 
rewritten something, one of the things we might see on a 
satirical website. After all, the State Department has 
designated Saudi Arabia as a country of particular concern for 
its violations of religious freedoms. To suggest they follow 
the principles that founded this country, especially our First 
Amendment, is not only laughable, it is discouraging that 
anybody--anybody in government, not the least of which the 
President, would say that.
    The 2004 Country Report on Human Rights Practices of the 
State Department wrote that in Saudi Arabia, citizens do not 
have the right to change their government. The government 
reportedly infringed on individuals' privacy right. They may 
recognize the freedom enshrined in our First amendment, but 
they don't allow their citizens to enjoy it.
    I might say, it is important to understand the extremist 
ideology promoted in the kind of publications we are going to 
talk about and broadcast does not reflect the teachings of 
Islam or the beliefs of the vast majority of Muslims. It forces 
a distortion of the teachings of Islam.
    It is also noteworthy to mention the broadcasts of 
extremist ideology is not limited to the Muslim faith or Saudi 
television. Several of America's best-known Christian 
evangelists have made deplorable statements about Islam. These 
people are seen as speaking for the President and the Vice 
President. The Reverend Franklin Graham, who gave the 
invocation at George W. Bush's inauguration, said to NBC News, 
``We are not attacking Islam, but Islam has attacked us. I 
believe Islam is a very evil and wicked religion.'' Now, that 
is extremely offensive to those Muslims who practice their 
religion with the best tenets of it.
    The Reverend Jerry Falwell called the Prophet Muhammed a 
terrorist. The Reverend Pat Robertson has likened those who 
practice Islam, including a very large number of very loyal 
Americans, as our enemy. Just as the majority of Christians or 
Jews reject these statements, a majority of Muslims reject the 
publications and broadcasts that will be discussed here.
    So I commend the Chairman for his efforts to openly address 
the role of Saudi Arabia in our efforts to fight terrorism. I 
think this is an extremely important hearing, and I apologize 
for going almost a minute over.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Senator Leahy.
    We had expected to have a witness from the State 
Department. When this hearing was scheduled originally for 
October 25, we had a State Department witness and we were 
notified late yesterday afternoon that the State Department 
would not be sending a witness. It is anticipated that the 
Secretary of State will be visiting Saudi Arabia soon and the 
indications are that the State Department thought from their 
point of view it was not advisable to have testimony presented 
at this Senate hearing.
    I regret that that decision was made. I believe that it is 
very important to shed light on these important subjects. The 
Syrian Accountability Act has become law, many features similar 
to the Saudi Accountability Act, and the Syrian Accountability 
Act grew cosponsors slowly but is an important piece of 
legislation. It is the Saudi Accountability Act which has 
attracted the attention and concern of the Saudi government and 
I think that is a very healthy thing and I think it is 
important to be very candid with our friends, the Saudis. If we 
are to maintain a good relationship, it ought to be in a 
context where we both speak frankly about what the facts are.
    The Committee does appreciate the Treasury Department 
sending Mr. Daniel Glaser here today. He is the Treasury 
Department's Deputy Assistant Secretary for Terrorist Financing 
and Financial Crimes and is the primary Treasury official for 
the development and coordination of international anti-money 
laundering and counterterrorism financing policy. He has a 
Bachelor's degree from Michigan, a law degree from Columbia, a 
very distinguished record in public service.
    Mr. Glaser, thank you for your appearance here today and we 
look forward to your testimony.

  STATEMENT OF DANIEL L. GLASER, DEPUTY ASSISTANT SECRETARY, 
OFFICE OF TERRORIST FINANCING AND FINANCIAL CRIMES, DEPARTMENT 
               OF THE TREASURY, WASHINGTON, D.C.

    Mr. Glaser. Chairman Specter, Ranking Member Leahy, and 
other distinguished members of the Committee, thank you for 
inviting me to testify today before you on the Kingdom of Saudi 
Arabia. This is an important topic that touches at the very 
heart of our efforts as a government to combat terrorism 
throughout the world.
    We have learned over the last year--the last 4 years that 
the war on terror requires the collective efforts of every 
country working to combat terrorism both within its own borders 
and in every corner of the globe. In this collective fight, we 
depend on the wisdom, vigilance, and support of both our allies 
and those whom we traditionally hold at arm's length.
    Saudi Arabia is, by all measures, one of the countries most 
central to our global counterterrorism efforts. I would 
characterize the quality of this relationship as one of active 
partnership. The successes of global anti-money laundering and 
counterterrorist financing efforts relies in good measure on 
ensuring that this partnership is real, focused, and lasting.
    Today, Saudi Arabia is actively countering the threat of 
terrorism. This is a key success, unfortunately catalyzed in 
the May 2003 terrorist attacks in Riyadh, which alerted the 
Kingdom that terrorism is not a theoretical global problem, but 
very much a local one. Having now suffered multiple attacks on 
the Kingdom itself, Saudi Arabia has come to understand the 
clear and present danger that terrorism and its vast support 
structures pose to its citizens and the very fabric of everyday 
life. The United States experienced the same shock on September 
11, 2001, and the difficult months and years that have 
followed.
    The time has now come for Saudi Arabia to take an active 
leadership role in all aspects of the war on terrorism. Saudi 
Arabia is aggressively tackling the scourge of extremism and 
terrorism it faces within its Kingdom, but those efforts must 
now translate into action against a broader range of terrorist 
support activities wherever they are found.
    In some respects, Saudi Arabia has gone further than many 
countries in its region to build serious systems aimed at 
combatting illicit finance. For example, recently, Saudi Arabia 
has taken measures, such as enhancing measures to target cash 
couriers, establishing its stringent financial regulatory 
regime regarding charities, developing a financial intelligence 
unit. Anecdotal information suggests that these measures have 
made it more difficult for sponsors of terrorism to fund their 
causes. We also must acknowledge the extraordinary effort of 
Saudi Arabia's internal security forces, which have been waging 
an ongoing battle on the ground with al Qaeda and have 
themselves sustained casualties. Any assessment of Saudi 
Arabia's efforts should be understood against that backdrop.
    While we support and welcome these efforts, resolute 
leadership against all aspects of terrorist financing is 
absolutely crucial and Saudi Arabia needs to take its efforts 
in this area to the next level. For example, abuse of certain 
charities and NGO's has been an ongoing concern. Saudi Arabia 
has taken impressive steps with respect to the oversight of its 
charitable sector as a whole, but it is not clear to us, 
though, that these restrictions are having true effect on the 
global operations of certain Saudi-based international NGO's, 
such as the International Islamic Relief Organization, the 
World Assembly of Muslim Youth, and the Muslim World League.
    Saudi officials must concern themselves beyond the limits 
of restrictions within the Kingdom. They must recognize that 
organizations so closely associated with Saudi Arabia anywhere 
in the world are de facto Saudi responsibility. These 
organizations must become an integral part of Saudi focus and 
policy. I am not suggesting that Saudi Arabia go it alone. This 
type of comprehensive strategy will require the coordination of 
many regional and global counterparts. But Saudi Arabia itself 
must be actively engaged in ensuring that these organizations 
are responsive to Saudi oversight. The Saudis must care not 
only what happens in IIRO-Riyadh, but must also be concerned 
with what transpires in every other IIRO office around the 
world.
    Moreover, formal NGO's are not the only mechanism for 
raising and transmitting funds to terrorists. Beyond charities, 
we are concerned about the pocketbooks of private donors who 
are not currently scrutinized by these stringent regulations. 
We have raised this issue on numerous occasions with our Saudi 
counterparts. Especially as charities and NGO's are held under 
closer scrutiny, it will become increasingly important to focus 
on the ways in which private giving has and is being abused.
    Finally, the fight against terrorist financing cannot be 
limited to al Qaeda funding alone. Just as Saudi Arabia is 
working to ensure that Saudi funds do not support al Qaeda, it 
must work equally diligently to thwart the funding of 
Palestinian terrorist groups that undermine peace and stability 
in the Middle East.
    Leadership requires a comprehensive, proactive, and zero-
tolerant approach to terrorism that includes widespread 
vigilance over global charities and wealthy private donors as 
well as total intolerance for support to all terrorist 
organizations. We hope that Saudi Arabia accepts this challenge 
of leadership and the greater responsibilities that come along 
with it. As Saudi Arabia does so, we will be able to say that 
we have entered into a new stage of our partnership in the war 
against terrorism. Thank you.
    Chairman Specter. Thank you very much, Mr. Glaser.
    [The prepared statement of Mr. Glaser appears as a 
submission for the record.]
    Chairman Specter. We have been joined by Senator Kyl. 
Senator Kyl, would you care to make an opening statement?
    Senator Kyl. Mr. Chairman, no, I think it is more important 
for us to hear from the witnesses. Thank you for holding this 
hearing. It is just critical and it does followup on some 
hearings we have had in the Terrorism Subcommittee which early 
on pointed out the fact that the great bulk of funding for 
terrorism was coming out of Saudi Arabia. In fact, David 
Aufhauser, then the General Counsel of Department of Treasury, 
testified in this room before our Subcommittee that Saudi 
Arabia was the epicenter of funding for terrorism, and I don't 
believe that that circumstance has been significantly altered. 
So it is important that you hold this hearing and I thank you.
    Chairman Specter. Thank you, Senator Kyl. You have been a 
leader in this field for a long time. My recollection is that 
we served on the Intelligence Committee together back in the 
104th Congress and have been engaged in these issues. You 
Chaired the Subcommittee for the Judiciary Committee and have 
done excellent leadership work.
    Mr. Glaser, we are going to show a video which reflects the 
monitoring by the Middle East Media Research Institute on Saudi 
television channels and it will depict leading Saudi religious 
leaders, professors, government leaders, and intellectuals this 
year and last year where they call for the annihilation of 
Christians and Jews, rampant anti-American and anti-Semitism, 
support for jihad, incitement against U.S. troops in Iraq, and 
the coming Islamic conquest of the United States, very, very 
graphic evidence as to a very intense problem.
    On May 23 of this year, just a few months ago, the Under 
Secretary of the Department of the Treasury, Stuart Levey, made 
this statement, quote, ``In addition to the export of terrorist 
funds, we are extremely concerned about the export of terror 
ideologies. These teachings are as indispensable to terrorists 
as money and possibly even more dangerous. We must do all we 
can to ensure that extremists' violent ideologies are not 
disseminated under the cover of religious organizations, 
charities, or schools.''
    The September 2005 GAO report says that Treasury, quote, 
``does not identify, monitor, or counter the support and 
funding of the global propagation of Islamic extremism as it 
relates to ideology.''
    My question is, in light of the explicit Treasury 
Department policy as articulated by the Under Secretary, how do 
you account for the fact that the GAO reports that the Treasury 
Department has done nothing to formalize a program to counter 
this propaganda?
    Mr. Glaser. Thank you, Senator. I think that the reference 
in the GAO report that you are referring to is a legalistic 
point that it is making, saying that the specific authorities 
that we have at the Treasury Department to target terrorism, in 
particular, are Executive Orders, Executive Order 13224, which 
gives us the authority to impose targeted financial sanctions 
on supporters of terrorism, focuses on the activities of 
individuals. It doesn't focus on the ideology of an individual. 
And I think that is the point that the GAO is trying to make in 
that.
    Of course, we can use this authority, though, to undermine 
the underlying support networks that do promote the propagation 
of extremist ideology and we have done so. The GAO report 
mentions our targeting of Al-Haramain Foundation. We have 
targeted with our authorities Al-Faqih last year. We designated 
him. The websites that he and his organization were running 
were propagating extremist ideology.
    So I think it is important to understand that that quote in 
the GAO report is speaking to the legal foundation upon which 
we operate, not to the overall policies that we have at the 
Treasury Department. Certainly at the Treasury Department, we 
are very concerned about the propagation of extremist ideology 
and use the authorities that we have to undermine that as best 
we can.
    Chairman Specter. Mr. Glaser, in September of last year, 
the Bush administration designated the Saudi Al-Haramain 
charity as a group suspected of supporting terrorism through 
its main location in Ashland, Oregon, and a mosque in 
Springfield, Missouri. Assets of both have been frozen since 
February of 2004. How can it be explained why the Saudis have 
not shut down all worldwide branches of Al-Haramain as they 
said they would, according to the State Department? In May of 
this year, a Treasury official told GAO that it was unclear 
whether the Saudi government had made any efforts to shut down 
other branches.
    What has the Department of the Treasury done to insist on 
compliance by the Saudis with their commitments? What can the 
Treasury Department do, or what will the Treasury Department 
do? I asked you three questions because my time just expired.
    Mr. Glaser. OK. I will try to answer all of them, Senator.
    With respect to Al-Haramain Foundation, obviously, it has 
been a long concern of the Treasury Department and of the 
entire U.S. Government, and frankly, of the Saudi government, 
as well. I believe in 2002, the U.S. and Saudi Arabia jointly 
designated two branches of Al-Haramain Foundation, in Bosnia 
and in Somalia. Subsequent to that, we jointly designated an 
additional four or five, and then after that, designated more 
after that, all in conjunction with Saudi Arabia. In addition 
to that, the Treasury Department designated the leader of Al-
Haramain Foundation.
    I think at this point, it is safe to say that Al-Haramain 
Foundation as we have known it is not functioning in the world. 
The network--the Al-Haramain Foundation that we were concerned 
about in 2002, 2003, 2004 is no longer in existence.
    Now, with that said, there is always concerns with respect 
to any designation, be it Al-Haramain Foundation or any 
designation that we do, that the individuals who run these 
networks find other means of moving their money throughout the 
world. That is why this has to be a constant, vigilant attack. 
We need to make sure that the individuals who were involved in 
Al-Haramain Foundation are not finding alternate means of 
moving their money. They certainly haven't changed their views 
of the United States or of Israel or of Western civilization as 
a whole.
    And I think this gets to the point I was trying to make in 
my testimony, both in my written and oral testimony, is that 
this is precisely the sort of issue that Saudi Arabia does need 
to be concerned about and is to make sure that organizations 
which have been so closely associated with Saudi Arabia in the 
past are--that it is absolutely clear where Saudi Arabia stands 
with respect to those organizations, that it is absolutely 
clear that those organizations can find no comfort with the 
government of Saudi Arabia.
    I think in the case of Al-Haramain, Saudi Arabia has made 
that clear, but we need to constantly be vigilant. We need to 
constantly be monitoring. We need to be constantly looking 
around the world to make sure that any entity we designate 
doesn't reconstitute itself through other mechanisms, and that 
is something that the U.S. Government is quite aware of and is 
always trying to followup on.
    Chairman Specter. Thank you, Mr. Glaser.
    Senator Leahy?
    Senator Leahy. Mr. Glaser, if the Saudi government or its 
proxies, which sometimes can be just as important, were to 
provide direct funding to terrorist activities, we could, of 
course, prosecute those actions. Funding in these schools, as 
you suggest, is a lot more complicated. In some cases, they may 
simply provide education to people who wouldn't have had it 
otherwise. Others, we know they are doing a lot more than that.
    What steps, if any, are available to the Department of 
Treasury to address the Saudi's lavish fundings of madrasses 
when those schools directly advocate extremist interpretations 
of Islam, including hatred and violence? Or do we have any 
steps?
    Mr. Glaser. Thank you, Senator. I think that is an 
important question. The Treasury Department, I think, has a 
range of authorities that we could deploy against extremist 
ideology, against terrorist ideology worldwide. The first and 
most obvious tool is the one that Senator Specter and I were 
discussing, and that is designations, especially under 
Executive Order 13224, and we have and do aggressively use our 
authority in that area to try to undermine the networks that 
support global jihad, that support global extremism, and we do 
that whenever we feel appropriate.
    You have designated--you mentioned madrasses and charities. 
We have designated 41 charities under Executive Order 13224. I 
fully agree with you. Simply because a charity is engaged in 
beneficial social programs doesn't give it the right to also 
engage in terrorism, and if it is 99 percent social programs 
and 1 percent terrorism, that is 1 percent too much and we have 
to take very aggressive action.
    Senator Leahy. The 1 percent would--you would move under 
these various laws if there was even that 1 percent?
    Mr. Glaser. Absolutely. If we think a charity is involved 
in terrorism, we will take whatever steps we can to shut the 
charity down.
    Senator Leahy. Now, Account 98 has been described as a 
Saudi government account that funds Palestinian terrorist 
groups. The Saudis say that Account 98 no longer exists. Is 
Treasury convinced it no longer exists? How would you verify 
such a statement?
    Mr. Glaser. Account 98 has been an issue that we have 
raised with the Saudis many times over the years. I have 
personally raised it with the Saudis many times over the years. 
The Treasury Department has raised it with the Saudis many 
times over the years, as recently as just last month. Every 
time we raise Account 98 with the Saudis, we are assured that 
Account 98 no longer exists.
    Senator Leahy. Does it exist?
    Mr. Glaser. We have been assured that Account 98 doesn't 
exist. Now, I understand--
    Senator Leahy. Are you convinced that it doesn't, then?
    Mr. Glaser. Well--
    Senator Leahy. I mean, if you keep raising it, obviously, 
these assurances from the Saudis are not convincing the 
Treasury Department. How do you feel? Is it there or isn't it?
    Mr. Glaser. As the Senator pointed out, there was a recent 
broadcast that was broadcast through Saudi Arabia which made 
reference to Account 98. It is very troubling. As I said, we 
have raised that with the Saudis--
    Senator Leahy. Mr. Glaser, you are troubled, I am troubled, 
a lot of people watching this are troubled. Are the Saudis 
telling the truth? Does Account 98 exist, in your opinion?
    Mr. Glaser. Well, my opinion is that we need to look into 
this and verify that Account 98 does not exist and we are doing 
so.
    Senator Leahy. OK. So you are not prepared to say--is it 
fair to say, in your opinion, it does exist and it hasn't been 
proven not to exist?
    Mr. Glaser. It has not been proven not to exist. It is 
something that--
    Senator Leahy. Let us move away from the double negatives. 
Does it exist?
    Mr. Glaser. Senator Leahy, I am not trying to evade your 
question. I am sorry if I appear to be. We are concerned with 
respect to the existence of Account 98. We are looking into the 
existence of Account 98. We have asked the Saudis to look into 
it, as well. We have been assured that it doesn't, but we need 
to look into it.
    Senator Leahy. Is it fair to say you have not been 
satisfied by the statements of the Saudis that Account 98 does 
not exist?
    Mr. Glaser. We think the Saudis and the United States need 
to look into this to ensure that it does not exist.
    Senator Leahy. In your testimony, you discuss the problem 
of international NGO's based in Saudi Arabia. The Saudis say 
these charities are de facto prohibited from sending funds 
abroad. Do you have confidence in that de facto prohibition, or 
is there a role for Treasury to play? Like the Chairman, I made 
sure I ended that just as the clock ran out.
    Mr. Glaser. Let me just quickly back up for 1 second and 
explain how the Saudi regulations work with respect to 
charities and where the loopholes are in that regulatory 
structure. The Saudis do have a very, very aggressive, 
comprehensive regulatory structure with respect to the 
financial activities of charities, and I go into that in some 
detail in my testimony and it is quite strict.
    Senator Leahy. That is why I asked the question.
    Mr. Glaser. There is an exception within that regulatory 
structure for certain charities that the Saudis regard as 
international or multilateral organizations. Those are the 
charities that I named, IIRO, WAMY, and Muslim World League. 
The Saudis have assured us that, nevertheless, those charities 
are being treated as if they were under the regulations, and I 
can say that, again, this is something else that the U.S. and 
the Saudi government need to look into more, to ensure that 
these organizations are not, in fact, continuing to fund 
activities worldwide.
    In addition, and this is, I think, is a crucial point and a 
point that I tried to make in my oral statement, is it is not 
just about these organizations' operations in Riyadh or their 
operations in Saudi Arabia. Equally of concern is their 
operations worldwide, which Saudi Arabia has asserted it has 
very little control over. That is, I think, one of the key 
issues that we need to continue to engage with the Saudis on, 
to emphasize to them that, in our view, these institutions, 
these entities are so closely associated with the Saudi 
government that they need to accept ownership of them and they 
need to do everything they can to exert influence in every way 
that they can, and that is the type of leadership 
internationally that I think Saudi Arabia is capable of doing 
and that I certainly hope and expect it will do in the future.
    Senator Leahy. That is what I was driving at. Thank you.
    Chairman Specter. Thank you, Senator Leahy.
    Senator Kyl?
    Senator Kyl. Thank you. What was their response when you 
pointed out that the television advertising as late as late 
August, August 29 of this year, specifically referred to 
Account 98?
    Mr. Glaser. They were as puzzled as we were. They asserted 
again that Account 98 does not exist.
    Senator Kyl. One of the purposes of this hearing, I think, 
is to send a message of how disappointed we are in the Saudis. 
They are not going to change what is a very difficult situation 
to change, I am sure, until they appreciate fully that most of 
the policymakers in the U.S. Government are very, very 
disappointed in their lack of complete cooperation here. Your 
testimony verifies that we remain disappointed and we remain 
committed to working with them to close a lot of these so-
called loopholes, but obviously, something stronger is going to 
be needed.
    I think perhaps since this is above your pay grade, and I 
wouldn't hold you accountable to telling us what those policies 
should be, we can at least suggest that if changes are not more 
forthcoming than they have been, that they can fully expect 
policies to come from the U.S. Congress and then the 
administration will have to determine how to deal with those 
policies. If the President signs legislation, it will be up to 
people like you to implement it. But we can't continue with 
this sort of cat-and-mouse game that has characterized the 
relationship.
    It is also, I think, important to note that even if there 
were an absolute commitment by the Saudi government and a 
sincere desire on the part of the Saudi government to cooperate 
fully, it would still be a very difficult proposition because 
of the ingrained traditions in Saudi Arabia and the 
contributions of a lot of very wealthy individuals through a 
variety of means that find their way to support terrorism 
around the world and to support the propagation of the virulent 
Wahhabi version of Islam.
    So I don't discount the difficulty of dealing with this, 
but when you don't see the commitment of the government itself 
that is 100 percent and you know that even with that, it would 
be very, very difficult, it is disappointing and I think we 
have to be pretty clear about our intention to act in a 
stronger way.
    Given the fact that, as I said, this is above your pay 
grade, although I would, frankly, like to see a little 
stronger--I would expect it out of the State Department more 
than Treasury. Treasury, I think, could be a little tougher in 
this regard, but you are not the person to pick on here. We 
should deal directly with the people who can express the views 
on behalf of the United States of America directly to the 
Saudis.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Kyl.
    Thank you, Mr. Glaser. As you hear from the panel, it is an 
issue of great concern and we really think more has to be done. 
We appreciate the interest which the Treasury Department has 
undertaken. We appreciate your efforts, but would encourage you 
and your colleagues in Treasury to do much, much more.
    We are now going to have a brief video presentation on 
monitoring which was done by the Middle East Media Research 
Institute's TV Monitor Program on Saudi government controlled-
television channels, TV1, TV2, as well as the Saudi satellite 
channel Iqraa. They are continually monitored and we have a 
short excerpt.
    [A videotape was shown.]
    Chairman Specter. Mr. Glaser, would you care to comment 
about the advocacy in favor of the jihad and the comments on 
retaliation against the Christians and the Jews?
    Mr. Glaser. Senator, I think that I probably have the same 
reaction that you have and that everybody in this room has. It 
is horrifying to see that sort of thing broadcast. It is what I 
and my colleagues throughout the U.S. Government spend our 
entire days and our careers trying to fight against. It is very 
troubling to see that type of hateful speech broadcast 
anywhere, and it is certainly troubling to see it broadcast in 
a place like Saudi Arabia. It is something that we need to all 
work very closely together to put an end to. It is absolutely 
unacceptable.
    Chairman Specter. What is the response of the Saudi 
government when confronted with this unassailable evidence? 
They can't deny these words. They can't deny the means of 
disseminating this virulent, hateful propaganda, and they can't 
deny that they have the power to stop it. So what do they say?
    Mr. Glaser. And this is the great challenge for the Saudi 
government. I truly believe this is the great challenge for 
them. I think they have come to understand that this type of 
speech, that this type of ideology is poisonous. It is 
poisonous in Saudi Arabia. It is poisonous in that region, and 
it is poisonous throughout the world. They are taking steps, as 
I pointed out in my testimony, to try to turn some of this 
around.
    Now, as has been pointed out already, this is a very 
difficult challenge for them and it is something that goes to 
the very heart of their role in the Arab world and in the 
Islamic world and in the international community. We are 
calling upon Saudi Arabia to take the steps that it needs to 
take to put this to an end.
    When we at the Treasury Department see opportunities to 
undermine the financial networks that support this type of 
activity, we take advantage of that, and we do that and we have 
done so in the past and we will continue to do so.
    Chairman Specter. One of the items that I discussed 
specifically with Mr. Al-Jubeir when he came to see me was the 
issue of what is in the schoolbooks. There have been 
representations by the Saudis, and this is a recurrent problem 
throughout the entire Mid-East, that they are taking care, at 
least for the next generation, to eliminate that kind of 
insidious propaganda. We are going to be having a witness later 
in the hearing today who will be testifying that that kind of 
propaganda is continuing. Have you heard any explanation or 
effort by the Saudi government to explain away that kind of 
insidious propaganda directed to children?
    Mr. Glaser. I think--I apologize. I am not trying to duck 
any questions, Senator, but I do think that is a question 
better put to the State Department. At the Treasury Department, 
we are trying to work to undermine the financial networks that 
support these types of activities. As I said before, we have 
raised these activities with the Saudis in the context of some 
of the broadcasts which have referenced Account 98 and we, of 
course, are continuing to push the Saudis to take as aggressive 
of action as possible.
    Chairman Specter. When the State Department--excuse me for 
interrupting you, but the time is close to expiring, less than 
a minute now. When the State Department has confronted the 
Saudis, and I am sorry the State Department representative is 
not here to answer this question directly, but you are the best 
we have, Mr. Glaser, so I am going to ask you. When the State 
Department has confronted the Saudis, what have the Saudis 
said?
    Mr. Glaser. I haven't been present for the discussions at 
our embassy and that State Department officials have had with 
the Saudis. I do think the Saudis are beginning to understand 
the threat that this type of ideology poses not just to the 
Kingdom, but to the world at large, and I think they are 
beginning to take steps to counter it. They are not--
    Chairman Specter. They are beginning to take steps?
    Mr. Glaser. Yes, I think they are beginning to take steps.
    Chairman Specter. When you say ``beginning,'' why just now 
beginning?
    Mr. Glaser. Well--
    Chairman Specter. When did they begin? And two questions--
time is almost up--when did they begin and what steps are they 
taking?
    Mr. Glaser. I think that the attacks in Riyadh in May 2003 
were a wake-up call for Saudi Arabia that terrorism and an 
extremist ideology that supports terrorism is a local problem 
for Saudi Arabia, that it is not just a theoretical, global 
problem, but that it is a local problem for Saudi Arabia, and I 
think that we saw a significant change in the cooperation that 
we received from the Saudi government from May 2003 on.
    Now, I think the important thing for--what I would like to 
see more of is not simply focusing on Islamic extremism as it 
implicates the Kingdom itself, but the exportation of Islamic 
extremism. That is some of the very same points that you made 
yourself, Senator.
    With respect to some of these NGO's, some of these non-
governmental organizations that I mentioned in my testimony, 
that you yourself have mentioned, it is important that Saudi 
Arabia take ownership of the problem of the ideology that is 
put forth by those organizations and take every action it can 
to make sure that those organizations, which were purportedly 
set up for charitable purposes, are not being abused and put to 
hateful and to terrorist ends.
    Chairman Specter. Thank you, Mr. Glaser.
    I am advised that these clips are available for viewing in 
the United States via satellite TV.
    Senator Leahy, further questions?
    Senator Leahy. No. I just share your concern that the State 
Department would not send somebody up here. Mr. Glaser has done 
a great job. It is unfortunate he has to be the one to answer 
these, because ultimately, the State Department has to take 
strong steps. One of the things I would have asked Secretary 
Rice or her representative, is she willing to speak out 
strongly when she goes to Saudi Arabia?
    It is not speaking out strongly to have the top official of 
our country say that the Saudis have the same or similar 
commitment to democracy that we saw in our Constitution. I 
would point out that we have the First Amendment, which 
guarantees the right to practice any religion you want or none 
if you want and guarantees your freedom of speech. There are no 
guarantees in Saudi Arabia or anything like that.
    I must admit to a concern, I have never had adequate 
answers about why we flew a planeload of Saudis out of this 
country right after 9/11, even though most of the hijackers 
were Saudis. When the FBI testified here, they said, well, we 
had FBI agents go in and talk to them before they took off. I 
asked if any FBI agents spoke Arabic. Of course, none did. We 
are far too cozy with the country that has provided the 
terrorists who have hit us here.
    When Under Secretary Levey, according to your testimony, 
said that wealthy Saudi individuals were still funding violent 
extremists around the world, is there anything specifically we 
can do to stop that funding, I mean, other than say we hope 
that they will stay true to their commitments to democracy, 
which is carefully hidden?
    Mr. Glaser. Thank you, Senator Leahy. To address one of the 
previous points you make, and then I will certainly give you a 
direct answer to your question, I do think that we have spoken 
out forcefully with respect to Saudi Arabia. I think it is 
important that we be balanced in what we say, but I was in 
Saudi Arabia earlier this year with Homeland Security Advisor 
Fran Townsend and I can tell you that she was quite unambiguous 
in the U.S. commitment to support democracy in the region and 
support democracy within Saudi Arabia. So I think that we have 
spoken out quite clearly and directly to the Saudis on that 
issue.
    With respect to what we can do with respect to donors, 
private donors within Saudi Arabia, as we locate these donors, 
there are a number of tools that we have at our disposal. We do 
have designations at the Treasury, designations under Executive 
Order 13224, and we have used those. We have used those against 
wealthy Saudi donors in Saudi Arabia, Batterji, Jalaluddin. 
These are examples of wealthy Saudi donors that we have 
designated.
    Now, there are other options that we have. We have a joint 
task force on the ground with the IRS Criminal Investigative 
Division and the FBI working very closely with Saudi police to 
pursue law enforcement in those types of actions with respect 
to these donors as we come up with them. But what is vital is 
that we have the information that we need to pursue these. This 
is not something, obviously, that we could do at the Treasury 
Department. As we get the information, we act upon it.
    But we do--at the end of the day, if an individual is in a 
particular country, we need to work very closely with that 
country in order to have success with respect to responding to 
that individual, and that is why the relationship with Saudi 
Arabia is so important, because there are wealthy donors in 
Saudi Arabia, as Under Secretary Levey said, and we need as 
much cooperation as we can get to make sure that we crack down 
on them.
    Senator Leahy. I couldn't agree with you more. I couldn't 
agree with you more. Thank you, Mr. Glaser. Thank you, Mr. 
Chairman.
    Chairman Specter. Thank you, Senator Leahy.
    Senator Kyl will be rejoining us, but does not have any 
further questions, so we thank you for coming in, Mr. Glaser. 
Thank you very much.
    Mr. Glaser. Thank you, Senator.
    Chairman Specter. I now call our second panel, Mr. Anthony 
Cordesman, Mr. Steve Emerson, Ms. Nina Shea, and Mr. Gulam 
Bakali.
    We had requested or invited the Saudi government to send a 
representative to these hearings in our policy of being 
balanced and asking people on all sides to testify. The Saudi 
government declined, but did recommend Mr. Anthony Cordesman as 
a prospective witness and he will lead our second panel.
    Professor Cordesman holds the Arleigh A. Burke Chair in 
Strategy, Co-Director of the Middle East Program at the Center 
for Strategic and International Studies. He is a military 
analyst for ABC, served in senior positions in the Office of 
the Secretary of Defense, State, Energy, and the Defense 
Advanced Research Projects. He has written extensively on 
security developments in North Africa and Arab-Israeli States.
    Thank you for agreeing to come in, Mr. Cordesman. Our 
practice is to have 5-minute statements and then 5-minute 
rounds of questioning by members of the panel. The floor, 
Professor Cordesman, is yours.

 STATEMENT OF ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
   STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                        WASHINGTON, D.C.

    Mr. Cordesman. Thank you very much, Senator. This is an 
extraordinarily complex set of issues and I do have a formal 
statement for the record, which I request--that it will be made 
a part of the record in full.
    Chairman Specter. Your formal statement will be made a part 
of the record in full, as will all other statements which have 
been submitted to the Committee.
    Mr. Cordesman. Let me just make a few quick points of 
introduction. The first point is, if you pick the worst, you 
get the worst, and there are organizations which make almost a 
full-time effort to find the worst possible rhetoric in Saudi 
Arabia, Egypt, other Arab states, and Islamic countries, just, 
as unfortunately, as there are other organizations which are 
equally indiscriminate in finding the worst rhetoric from 
nations like Israel.
    Much of what has been said is very real, and Saudi Arabia 
is going to take time, at best, to make the changes that it 
should make.
    What bothers me about the approach that you are taking is, 
frankly, that I do not believe singling out Saudi Arabia or 
``Wahhabi'' practices focuses on the real problem. I think 
extremist neo-Salafi movements are not derived from Saudi 
practices. They have their origin in ideologies coming from 
Egypt, which indeed is where bin Laden and Zarqawi derived 
their ideology.
    There are some very good analyses of what the broader 
issues are in Islamic extremism by the Crisis Group, which I 
think would be described as one of the most balanced looks by 
any organization at the problems and tensions in this region, 
and I would commend that to the Committee. There is one called 
``Understanding Islamism,'' which is a report they issued in 
March of this year.
    I think the great problem we face here is also 
understanding just how serious anger is against us in the 
Islamic and Arab world and the reasons for which that anger 
occurs. It is, unfortunately, our alliance with Israel. It is 
our presence in Iraq. These are not policies that I in any way 
oppose, but they do have a very powerful cost, and if you look 
at polls of popular reactions in Jordan, Morocco, Turkey, other 
Islamic countries, or countries with strong Islamic movements, 
you find broad-based support for extremism, violence, and 
sometimes bin Laden. These countries do not have strong Wahhabi 
presence, practices and beliefs. ``Wahhabism'' in itself is not 
the problem.
    The second point I would make is that I do see real 
progress in Saudi Arabia. I don't think you are going to get 
instant progress. I have never seen instant progress in any 
aspect of that country and I have been pushing for reforms in 
the kingdom for several decades, long before 9/11. But they 
have cooperated with us in Iraq, in spite of the fact they did 
not support the Iraq war. They have had an increasing 
cooperation in counterterrorism, and in my visits there, I find 
the U.S. embassy and people in the U.S. security community 
praising the enhanced cooperation. Is it complete? No. But in 
areas like education, in areas like religion, I think you do 
see movements toward reform.
    I do have to say that, frankly, I think some of the 
discussion here this morning on the financing of terrorism is 
ridiculous. I would love to see somebody stop talking in 
generic terms and tell me what the financing streams are by 
terrorist organization, because I don't believe that Saudi 
Arabia is the cause. I think most of these organizations have 
ample sources of other funding. And if it had not been for 9/
11, I think we would be focusing on the fact that Qatar, Egypt, 
and many other countries have a powerful flow of private money. 
And given the fact that there is nearly, at this point, a 
trillion dollars worth of private capital in private facilities 
in Europe, your chances of controlling this are about as good 
as your chances of winning the war on drugs.
    Quoting or having excerpts from a satellite program that 
isn't based in Saudi Arabia doesn't really tell you very much 
about Saudi television coverage or culture. Picking out the 
worst of what is said in Saudi Arabia doesn't tell you much 
about the overall thinking in Saudi Arabia, or the attitudes of 
the Saudi government. I think we need to be very careful this 
morning and in the future to focus on Saudi Arabia's very real 
problems and the pace of reform that can occur and not to 
ignore the nature of what is happening in the Middle East as a 
whole.
    I do believe that we have many tools, and I will be happy 
to discuss them with the Committee, if you are interested. We 
could do a much better job as a government, not only in dealing 
with Saudi Arabia, but with dealing with all of the countries 
in this region. The fact that 9/11 had 15 Saudis is not the 
issue here. They could as easily have come from Egypt or 
Morocco or many of the other countries where these movements 
occur. They are not Wahhabi and that is not their source of 
origin. They are extreme neo-Salafists movments and not derived 
from Saudi religious practices.
    Chairman Specter. Thank you very much, Professor Cordesman.
    [The prepared statement of Mr. Cordesman appears as a 
submission for the record.]
    Chairman Specter. Our next witness is Mr. Steven Emerson, 
Executive Director of the Investigative Project on Terrorism, 
one of the world's largest data and intelligence centers on 
Islamic and Mid-East terrorist groups. He is an internationally 
recognized expert who frequently testifies before Congressional 
Committees on the operational networks of al Qaeda, Hamas, 
Hezbollah, Islamic Jihad, and the other terrorist 
organizations.
    We appreciate your being here, Mr. Emerson, and look 
forward to your testimony.

STATEMENT OF STEVEN EMERSON, EXECUTIVE DIRECTOR, INVESTIGATIVE 
             PROJECT ON TERRORISM, WASHINGTON, D.C.

    Mr. Emerson. Thank you, Senator Specter, and thank you, 
Senator Leahy, for having this hearing, which I believe 
resulted in the State Department yesterday releasing its report 
on violations of religious freedoms--
    Senator Leahy. You don't think that was a coincidence?
    [Laughter.]
    Mr. Emerson. The State Department acts in strange and 
mysterious ways.
    Chairman Specter. Let me interrupt you for just a minute on 
that, Mr. Emerson, and we will start your clock back at 5 
minutes, but I think it is informative and significant. Why do 
you think this hearing motivated the release of the report?
    Mr. Emerson. I think the fact that the hearing was supposed 
to be held 2 weeks ago and that it was delayed and that it was 
held now without the participation of the State Department 
meant that they were seen as almost obstructing the hearing or 
impeding it--
    Chairman Specter. Almost obstructing?
    Mr. Emerson. All right, obstructing. I will take out the 
qualification. I think--
    Chairman Specter [continuing]. Instant modification.
    Mr. Emerson [continuing]. And I think the opportunity for 
them to basically try to deflect some of the culpability for 
obstructing the hearing was manifested in the presentation of 
that report, which I think is a good report. It should have 
been presented last month pursuant to the Act that was passed 
by Congress.
    Chairman Specter. Your 5 minutes begins now.
    Mr. Emerson. All right. Thank you.
    Twenty years ago, I wrote a book called The American House 
of Saud: The Secret Petrodollar Connection. It was written in 
1985 and it talked about the political strings attached to 
Saudi Arabian investments and donations and funding to academic 
centers in the United States and how it essentially acquired 
legitimacy by purchasing it through registered agents and 
donations. I find myself now 20 years later returning over and 
over to the same problem.
    In the years prior to 9/11, the U.S. Government and most 
everybody else paid little attention to the flow of money and 
propaganda coming from Saudi Arabia, promoting the Wahhabist 
agenda, and there is no doubt, as my co-panelist, Dr. 
Cordesman, has stated, that Saudi Arabia is not the only 
exporter or shouldn't be targeted as the exclusive exporter of 
militant Islam, because the Muslim Brotherhood has done that 
for years. But Saudi Arabia's petrodollars have been absolute 
vehicles and their legitimacy as the custodian of Islam, as 
they have represented themselves, have given them the ability 
to project their views of Islam, which I do not believe 
represent mainstream Islam, but it unfortunately has had a 
domino chain reaction in influencing the views of organizations 
and madrassats and other institutions around the world. Because 
of its vast petrodollar riches, it has been able to pursue its 
puritanical interpretation, described in shorthand as 
Wahhabism, in indoctrinating young Muslims, controlling the 
direction of major Islamic religious institutions, and 
extending the Wahhabist doctrine around the four corners of the 
globe.
    The question now we face in 2005 is whether, in fact, Saudi 
Arabia has changed or the representations that they need post-
9/11, that they are actually redirecting the activities of the 
NGO's, that they are exercising controls over the 
organizations, that they are trying to stop the export of 
extremism. How true is this? Have they actually changed the 
textbooks? Have they actually reigned in those NGO's? Those are 
the metrics that we need to be specifically focusing on.
    I can't pretend that I have all the answers, but I can tell 
you that pursuing an investigation as I have for the last 10 
years, and over the course of the last year in particular, 
looking at Saudi Arabia websites, publications, broadcasts, 
textbooks, and the institutional recipients here in the United 
States, I can say that there are certain conclusions that I 
would come to.
    One, Saudi organizations and leaders operating with the 
permission or acquiescence of the Saudi regime continue to 
promote a virulent anti-Western propaganda and raise serious 
questions of whether the regime itself is trying to 
comprehensively crack down on the sources and support for 
Islamic terrorism. While there have been efforts to sanitize 
Saudi websites and publications, the fact of the matter is, 
there are still significant websites, including those 
officially attached to the Saudi government, that call for 
jihad and that disseminate anti-Christian or anti-Jewish 
theology.
    There have been some constraints imposed by the Saudi 
government on NGOs, but, in fact, the primary perpetrators and 
disseminators of radical Islamic theology, the Muslim World 
League, the World Assembly of Muslim Youth, have not been 
reigned in under the official governance and package announced 
by the Saudi government.
    Saudi funding of Hamas continues. There was a courier 
arrested in Israel in September and apparently he was a courier 
transferring funds between Saudi Arabia and the Palestinian 
territories.
    Saudi government officials, in response to questions about 
whether, in fact, they are involved in stopping the flow of 
extremism, have vehemently claimed that they are, but they have 
made outrageous anti-Semitic allegations and claiming somehow 
that the al Qaeda attacks in Saudi Arabia that have occurred 
since 2003 are part of a Zionist conspiracy.
    Saudi religious figures continue to call for jihad against 
the United States. Saudi officials in the United States and 
American recipients of Saudi funds here continue to detract 
attention from the extremists by alleging there is a campaign 
against Saudi extremism that is racist. In fact, it is the 
Saudi campaign that is racist.
    Senior Islamic terrorists, Yasin Al-Kadi and others 
designated by the United States as al Qaeda supporters, have 
never been sanctioned.
    So in the end, the question is what are the metrics? How 
are we going to verify their representations to us? I believe 
the record shows that the campaign of quiet diplomacy, of 
trying to nudge them along and push them without publicly 
criticizing them, has not paid the dividends that we need to 
see, and therefore, I believe your act that you have supported 
is something that would be vitally important in putting them on 
record and demanding a set of metrics and standards that they 
have to adhere to. Thank you.
    Chairman Specter. Thank you very much, Mr. Emerson.
    [The prepared statement of Mr. Emerson appears as a 
submission for the record.]
    Chairman Specter. Our next witness is Ms. Nina Shea, 
Director of the Center for Religious Freedom. She serves on the 
U.S. Commission on International Religious Freedom and 
represented the United States as a public delegate to the U.N. 
Commission on Human Rights in 1993 and again in 2001. Her 
organization recently published the report, ``Saudi 
Publications on Hate Ideology Invade American Mosques'' in 
January of this year.
    We appreciate your coming in, Ms. Shea, and we look forward 
to your testimony.

STATEMENT OF NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS FREEDOM, 
                FREEDOM HOUSE, WASHINGTON, D.C.

    Ms. Shea. Thank you very much, Mr. Chairman, members of the 
Committee.
    Two years ago, a Muslim American friend and colleague of 
mine handed me this little pamphlet and told me to read it. It 
was in Arabic, and so we had it translated, and it says--it 
gives detailed instructions on how to build a wall of 
resentment between the Muslim and the infidel. Never greet the 
Christian or Jew first. Never congratulate the infidel on his 
holiday. Never befriend an infidel unless it is to convert him. 
Never imitate the infidel. Never work for the infidel. Do not 
wear a graduation gown, because this imitates the infidel, and 
so on. The cover of this book giving this particular 
instruction states, ``Greetings from the Cultural Attache, 
Washington, D.C.,'' this from the Embassy of Saudi Arabia here 
in Washington.
    So Freedom House's Center for Religious Freedom decided to 
go forward and take on a study addressing the question, is 
Saudi Arabia, our purported ally in the war on terror, 
responsible for having planted extremist propaganda within our 
borders? In order to document the Saudi influence, the material 
for this report was gathered from a selection of more than a 
dozen prominent sites in large American cities, and these 
materials cover--have publication dates spanning four decades, 
including dates after 9/11.
    The study did not attempt any general survey of American 
mosques or American Muslims. In fact, we believe American 
Muslims overwhelmingly reject these directives.
    The various Saudi publications gathered for the study state 
that it is a religious obligation for Muslims to hate 
Christians and Jews and warn against imitating or helping them 
in any way. They instill contempt for America because the U.S. 
is ruled by legislated civil law rather than by totalitarian 
Wahhabi-style Islamic law. Some of the publications direct 
Muslims not to take American citizenship as long as the country 
is ruled by infidels.
    The textbooks and documents our researchers, who themselves 
were Muslim, collected preach a Nazi-like hatred for Jews and 
treat the Protocols of the Elders of Zion as historical fact, 
and Mr. Chairman, as you know, this was a document--this 
protocols was a document used by Hitler to indoctrinate Nazi 
use, now being exported by Saudi Arabia, by the government of 
Saudi Arabia to the United States. These documents show a 
particular vicious hatred toward other Muslims, especially 
those who advocate tolerance. These Muslims are condemned as 
infidels.
    The opening fatwa in one embassy-distributed booklet 
responds to a question by a Muslim preacher in Europe who 
taught that it is not right to condemn Christians and Jews and 
infidels, and the Saudi state cleric's reply rebukes the Muslim 
cleric. ``He who casts doubt upon their infidelity leaves no 
doubt about his,'' and that is basically a death threat, 
because in Saudi Arabia it is a crime, a capital offense to be 
an apostate.
    Sufian Shiite Muslims are also viciously condemned in these 
documents. Others in our collection declare that Muslims who 
engage in interfaith dialog are also unbelievers. Regarding 
those who fail to uphold Wahhabi sexual mores through 
homosexual activity or heterosexual activity outside of 
marriage, the edicts found here advise, quote, ``it would be 
lawful for Muslims to spill his blood and take his money.'' 
Regarding those who convert out of Islam, it is explicitly 
asserted in some of these documents, they should be killed.
    They show an ideology that embraces a dualistic world view 
in which there exists two antagonistic realms that can never be 
reconciled, and that when Muslims are in the land of the 
infidel, they must behave as if on a mission behind enemy 
lines. So this is an ideology whose message is that Muslims 
should live in ghettoized enclaves with enmity and hostility 
against others.
    An insidious aspect of this propaganda is its attempt to 
replace traditional and moderate interpretations of Islam with 
Wahhabi extremism. These replies in the fatwa collections 
distributed by the embassy and by other agencies of the 
government, whether it is the Education Ministry or Cultural 
Ministry, are given an authoritative pronouncements that the 
introduction should be official guides for preachers, mosque 
imams, and students living far from the Kingdom. So this is a 
hate-filled ideology, not just speech, and it is educational 
and authoritative.
    Mr. Chairman, my time is out. I just want to say, we have 
not attempted to measure, again, the impact of this here. We 
know that King Fahd states the cost for spreading the stuff has 
been astronomical on the King Fahd website, which is still up 
even though he is gone.
    We haven't measured the effect. I know that most Muslims 
here are law-abiding citizens. Mr. Aliami, who is here today, 
saw firsthand in Saudi Arabia--he is a Saudi dissident living 
here now--he doesn't want to see this stuff here. His son 
served honorably in Iraq with the American military as an 
officer, so this is not a comment on American Muslims. It is a 
comment on Saudi Arabian government responsibility.
    Thank you very much.
    Chairman Specter. Thank you, Ms. Shea.
    [The prepared statement of Ms. Shea appears as a submission 
for the record.]
    Chairman Specter. Our next witness is Mr. Gulam Bakali, who 
serves on the Board of Trustees of the Islamic Association of 
North Texas. He was formerly its Chairman. Mr. Bakali's mosque 
was one of the mosques surveyed in the Freedom House report. He 
is Project Manager for Lockwood Green, a major global 
engineering construction firm.
    Thank you very much for coming to Washington today, Mr. 
Bakali, and we are very much interested in your testimony. You 
may proceed.

   STATEMENT OF GULAM BAKALI, SECRETARY, BOARD OF TRUSTEES, 
     ISLAMIC ASSOCIATION OF NORTH TEXAS, RICHARDSON, TEXAS

    Mr. Bakali. Good morning and thank you, Senator Specter and 
the rest of the members of the Committee. I appreciate the 
opportunity to come and talk about this report.
    Our basic focus is to talk about who we are, as referenced 
in the report, organizations referenced in the literature that 
was picked up, and it is incumbent upon me this morning, on 
behalf of my community, to help explain what we are rather than 
being extrapolated otherwise.
    At the very beginning, our mosque has neither been filled 
nor invaded by the literature alluded to in the report. The 
majority of the congregation do not understand Arabic as a 
language to even read, absorb, and propagate the line of 
thinking alleged to be advanced by such documents. Furthermore, 
the total number of books and literature, we have thousands. 
IANT, being the largest organization in the area, provides the 
library as a service to not only Muslims, but all faith-based 
groups for research and special projects.
    Our records indicate that the books referenced in the 
Freedom House report as collected from the Richardson mosque 
were not found in the library, were not ordered or purchased by 
IANT, were not distributed to the congregation, were not read 
from to the IANT congregation, were not promoted for purchase 
to the congregation, and were definitely not used to develop or 
author any position paper to promote a point of view. In fact, 
the majority of members do not access the library unless there 
is a dire need for academic research or something similar. The 
library operations amount to a small portion of what we 
currently do.
    We certainly feel that we have been wronged by this report 
that initially was published this year. We certainly have no 
knowledge of such documents being present, nor have we ever 
endorsed these materials.
    We invite you and the Committee to visit our facility and 
see our community firsthand. We have submitted for the record 
all our activities, and I urge you to indulge in those. You may 
join us at any of our Friday prayers, any classes, and any 
interfaith events. In the past several years, hundreds of 
government officials and candidates have observed our Friday 
prayers. Our U.S. Senators, along with several U.S. Congress 
Representatives, have been to our community gatherings. city of 
Richardson officials, FBI officials both past and present know 
many of our leaders personally and have been to many interfaith 
and community gatherings.
    We would love to host any of you who seek to understand us 
further and ask questions. Only by asking and listening to each 
other can we initiate and establish a better understanding 
about who we are as Americans.
    I have been with this organization 25 years continuously 
and can say with conviction some of the defining attributes as 
to who we are. A place of worship for Muslims, yes. A place for 
advanced Islamic studies, those who want to do more soul-
searching. A private school teaching Islamic and public school 
curriculum 6 days a week throughout the year, very rigorous, 
more so than any private school. A free medical clinic for the 
underprivileged. A place where other faith-based organizations 
can collaborate. Home for the youth to learn leadership skills, 
Scouts, and Habitat for Humanity. All this data has been 
submitted to you. A place where women can do their own 
programs. A welcoming center for new arrivals on the American 
shores. We have a refugee center. An adult retraining center 
for those who have been affected by the economy, computer 
classes and what not. A banquet hall, gymnasium for parties, 
events, basketball games. A humanity and civics group indulging 
in soup kitchen, Adopt-a-Highway, Katrina relief, and so on. 
And most recently, the last 5 years or so, we have been a very 
prominent member for the State Department's International 
Visitor Leadership Program and have hosted visitors from at 
least 12 to 15 countries.
    This certainly does not paint a picture of an indoctrinated 
community, reclused to themselves and full of hate for America. 
We are very proud of our 30-year heritage in the North Texas 
region as a place of worship, and more importantly, a center 
for sharing information about Islam in America, in particular. 
We plan to continue our open-door policy wherein every segment, 
group, race, or faith-based organization of our society is 
welcome to join us, understand who we are, and share the 
concerns and beliefs to help and reach our society.
    Our partners and patrons are many and they can further 
attest about our organization and what we stand for. Not to 
single a few out, but Thanksgiving Square, city of Richardson, 
Habitat for Humanity, Carter Blood Center, Arapaho United 
Methodist Church, North Texas Food Bank, and the list goes on.
    Thank you very much for this opportunity, Senator.
    Chairman Specter. Thank you very much, Mr. Bakali, for your 
testimony. We acknowledge at the outset that the Muslim 
community in the United States has contributed a great deal to 
our country and to our culture and we welcome the Muslim 
community as a nation welcomes the very diverse representations 
which we have in our country.
    When we express concern about what some extremists do, it 
does not reflect in any way upon the Muslims in America. We 
regard you as first-class American citizens, and I think it is 
important to keep that in perspective and the experience you 
have had on the Board of Trustees and Chairman of the Board of 
Directors of the Islamic Association of North Texas is very 
important to bring before the Committee, so we thank you.
    [The prepared statement of Mr. Bakali appears as a 
submission for the record.]
    Chairman Specter. Ms. Shea, you have quoted from some of 
the documents from the Saudi embassy. Is there anything 
specific in those documents which relates to the information 
given to children in textbooks?
    Ms. Shea. Well, we have collected from various sites 
textbooks, as well. For example, this one has the Saudi seal on 
it and it is published by--these are published by the Education 
Ministry or the Girls' Teaching. Some of these textbooks are--
    Chairman Specter. What do the textbooks contain relevant to 
the issue of how Christians are characterized, how Americans 
are characterized, how Jews are characterized?
    Ms. Shea. Absolutely. A third-year high school textbook, 
for example, talks about don't help or imitate the infidel 
Christians or Jews in any way. An 11th grade textbook in our 
collection is very anti-Semitic, saying Jews lured women to go 
to work, that kind of thing.
    Chairman Specter. Well, never mind that kind of thing. Let 
us hear it. Can you read it?
    While you are taking a look at it, Mr. Emerson, you refer 
to textbooks in the course of your testimony. Do you have 
anything specific to put into the record as to what the 
textbooks contain with respect to how Americans are 
characterized or Christians are characterized or Jews are 
characterized?
    Mr. Emerson. A few years ago, we collected a series of 
textbooks that were published by the Kingdom of Saudi Arabia 
and disseminated by the embassy here in Washington. Now, I 
can't represent that they are still being circulated today, 
those particular textbooks, but I did speak to several people 
in the Middle East in the last 2 weeks as we were preparing for 
this testimony in terms of having them try to acquire current 
textbooks. We spoke to several people actually in Saudi Arabia 
who are involved right now in securing some of the current 
textbooks.
    But I can tell you that textbooks that continue to be in 
circulation in the U.S. as well as in Europe, published by the 
Kingdom, have called specifically--
    Chairman Specter. Can you give us a date when they were 
published by the Kingdom?
    Mr. Emerson. Yes, we can give you--
    Chairman Specter. What is the date?
    Mr. Emerson. The dates that we have of some of those 
publications go back to the 1990's and early 2000 period.
    Chairman Specter. And do you have any evidence that they 
are currently in use?
    Mr. Emerson. We have evidence that some of them are still 
in use in the United States and some of them are still being 
used in Europe. I can't represent that at this date, November, 
that those books are still being used in Saudi Arabia, and to a 
certain extent, they can't necessarily be blamed if books that 
they have now stopped publishing, and if they disavowed, which 
would be great, are being used by others.
    Chairman Specter. Have they been disavowed?
    Mr. Emerson. Not as far as I know. They claim that they 
have sanitized some of the textbooks. They have claimed that, 
and this has been a big issue--
    Chairman Specter. Have you asked them for evidence on that?
    Mr. Emerson. I have not asked them directly for evidence. 
We have tried to acquire the textbooks directly from Saudi 
educational institutions and we are in the process of acquiring 
them now.
    Chairman Specter. Professor Cordesman, you testified that 
there have been improvements, as you characterized it, reform 
in education and religion. Could you be more specific? As a 
sub-part of the question, do you know, firsthand knowledge, 
whether there has been a change in the Saudi textbooks 
testified to by Ms. Shea and Mr. Emerson?
    Mr. Cordesman. There has been a change in the textbooks. 
The problem is that nobody knows how quickly they are being 
disseminated. You are talking about a relatively large 
country--
    Chairman Specter. But you have seen specific changes in the 
textbooks?
    Mr. Cordesman. Yes. I have seen copies of the changes. I 
don't sit around and collect the textbooks, Senator, and I have 
to have them translated, as others do. Changing the textbooks 
is part of a 3-year program, and it is not going to be quick or 
instant. It is a political struggle for the Saudi government 
against not only a conservative Saudi public, but 
unfortunately, a significant number of Jordanian, Egyptian, and 
very conservative teachers. It is not, however, something that 
is going to be quick or easy.
    The textbooks are being changed, and I would ask the 
Committee to ask the Saudis to provide the demonstrations, 
because for anybody on the outside, you are asking us to count 
the impossible.
    On the side of the clergy, I have seen more obvious signs 
because there are protests when I visit Saudi Arabia and some 
of the imams have been disciplined. Now, part of the problem 
is, Since there are no madrassas in the Kingdom, every imam in 
Saudi Arabia is a government employee. You have a long legacy 
of people who, at the extremes, were allowed to preach and say 
almost anything as long as it didn't have internal political 
impact. It is not going to be easy to change that clergy, but 
the fact that they are complaining about the government's 
interference is at least a reassuring sign.
    Chairman Specter. My time expired in the middle of your 
answer, but I will make just one comment with respect to what 
you have requested the Committee to do. We have asked the Saudi 
government for the texts and have not received them. The 
textbooks are said to be in the process of being translated. 
This follows a recurrent pattern of seeking information and 
being delayed and not getting it, but it is something the 
Committee is pursuing.
    Senator Kyl?
    Senator Kyl. Thank you, Mr. Chairman.
    Let me just begin, Tony, with you. You say we can't demand 
instant change, and nobody is suggesting that things have to 
change instantly, but we are looking for demonstrated efforts 
in the right direction. There are simply a lot of folks who, 
while acknowledging efforts that have been made, don't see them 
as enough.
    Second, you know that others are radical, too, and they 
promote it, noting people from Egypt and so on, and that is 
true. But the big bucks have come from Saudi Arabia.
    Let me ask you this question. I alluded to it before. The 
former General Counsel of the Department of Treasury testified 
before my Subcommittee that Saudi Arabia was the epicenter for 
terrorist financing around the world, and that was just a 
couple of years ago. You note that Saudi Arabia began to try to 
control funding in the 1990's and that governmental efforts to 
control terrorist financing have sharp limits and have probably 
reached the point of diminishing returns.
    Do you disagree with the Treasury Department's earlier 
statement, or are you saying that the situation has been 
corrected since then?
    Mr. Cordesman. I disagree with it. I have seen this 
approach used in many other cases by government officials and 
by the intelligence community. If you want to know where the 
financing is, you look at the individual movements and you try 
to figure out whether you have real evidence. You do not go 
with generalizations.
    If I say that there are Mennonite terrorists in 
Pennsylvania and they get $13 billion a year from Germany and I 
repeat it often enough, somebody may actually believe it. When 
I want to know where in bin Laden's organization the money 
actually is going, I don't ask about generic money. I want to 
know where that financing is coming from. The same is true for 
Zarqawi inside Iraq.
    It would be true in other cases that the financing probably 
was Saudi. Certainly, it was in the Pakistani madrasses that 
this Committee has focused on. But one needs to be careful 
about the content of those madrasses because it was President 
Zia of Pakistan who was encouraging those madrasses as a 
counterbalance to the secular movements inside Pakistan and 
that was perfectly all right for us as long as it was part of 
getting the Soviets out of Afghanistan.
    Senator Kyl. Tony, could I--we are getting kind of far 
afield, and I don't agree with that policy any more than I 
gather you do. I am primarily interested just in your view 
about this terrorist financing. The people from the Treasury 
Department have gotten very specific about specific bank 
accounts and specific countries and specific charities and so 
on and--
    Mr. Cordesman. Senator, there is a vast amount of Saudi 
money out there that shouldn't have gone where it has gone. The 
recipients of this money and their ties to terrorists, however, 
are what matter. The idea that somehow Saudi Arabia is the 
source of the money on which these groups depend, is not true. 
As I think you know, there is a member of the Qatari royal 
family who contributes significant amounts of money to these 
groups. I could go down case after case.
    Senator Kyl. There are others, but would you disagree with 
the statement that of all of the places where funding for 
terrorist-related activity has come from, that the largest 
single country from which it comes is Saudi Arabia? Would you 
disagree with that statement?
    Mr. Cordesman. I think if you talk about moving money out 
of the country to extremist organizations, it would be Saudi 
Arabia. If you talked about what dominates terrorist financing, 
which is what you began with, it would not be Saudi Arabia.
    Senator Kyl. Steve Emerson, let me ask you, since your 
original testimony was cut short a little bit, to comment on 
this exchange right now, please.
    Mr. Emerson. Well, I think I would make several points. One 
is I don't think we can make this clear distinction between, 
quote, ``terrorist financing''--you can make a clear 
distinction legally between terrorist financing versus 
financing of extremism, but I think it should be very clear 
that the massive billions of dollars the Saudi Arabian 
government has pumped into radical Islam and the Wahhabist 
views of Islam, in terms of their publications or websites, 
NGO's that are quasi-official representatives of the government 
have promoted a view of the world in which it is legitimate to 
attack infidels or Jews or Christians and you can carry out 9/
11-style attacks. So the extremist funding coming from Saudi 
Arabia has created the environment and the virus in which 
terrorism occurs.
    Now, the issue is trying to get a handle on this. I believe 
that the Saudi abilities have--the Saudi willingness to curtail 
the financing of Islamic extremist movements, they have not 
been willing to publicly declare and followup--emphasis on the 
followup--in terms of restricting the flow of money.
    WAMY, MWL, those are two NGO's that are fundamentally anti-
Semitic and anti-Christian. Let me just read you one quote 
here. It was from a New York Times story in 2004. I read you 
the quote. Quote, ``'Saying that the Jews and the Christians 
are infidels is part of our religious dogma,' said Saleh S. al-
Wohaibi, the American-educated Secretary General of the World 
Assembly of Muslim Youth. `Any changes in the way it is taught 
should be decided by the Saudis,' he said, adding, `it doesn't 
mean we try to incite hatred against others, but my religion 
has its own principles that should not be violated or 
changed.'''
    In other words, his dogma is hatred of Jews and Christians, 
and unfortunately, you can see that represented today even on 
official Saudi government websites. Look, they could take down 
these sites. Al-islam.com, which is part of the Saudi Arabian 
Ministry of Islamic Affairs Endowments and Guidance, continues 
to call for killing Jews. MWL's website in Canada calls Jews a 
racist religion. I could list over and over in specifics.
    I know Dr. Cordesman said, we want specifics. I don't deal 
in generalities. I deal in specifics. And the specifics are 
that the regime itself is wrapped up and continues to promote 
an ideological virus that, unfortunately, ends up legitimizing 
terrorist attacks, because in the end, terrorism can only flow 
from the decision by someone who says it is acceptable to kill 
somebody else who is not my religion.
    Senator Kyl. And I would note, Mr. Chairman, that we have 
focused not just on the funding of cells of terrorists 
conducting violent operations, but also on the whole question 
of the winning of the hearts and minds, the incitement to 
terror which precedes the action itself. So I think both of the 
points are legitimate.
    Chairman Specter. Thank you very much, Senator Kyl.
    Senator Schumer?
    Senator Schumer. Thank you, Mr. Chairman. I appreciate the 
hearing and the efforts of all of our witnesses here.
    You know, I would say this to Mr. Cordesman. You can point 
out other bad examples, but what has gone on in Saudi Arabia is 
as plain as the nose on your face, on any of our faces, and 
that is that there has been a link to Wahhabism all along. I 
don't know if it is called the official Saudi religion, but it 
is, and Wahhabism believes in many, many extreme things such as 
Mr. Emerson outlined.
    Here is what I think happened. Well, I want to ask you, I 
mean, do you disagree with any of the specifics that he cited? 
Are any of them wrong? Is it true that an official Saudi 
website--how would we react in America, or anywhere else, if it 
said that it is OK to kill Jews? Why don't they take that down? 
And don't you think that their precarious political balance 
with the royal family needs Wahhabism to protect itself and 
make itself OK to the people is sort of a deal, almost a deal 
with--I don't want to use the word, but a deal with someone 
very bad?
    Mr. Cordesman. No, Senator, I don't agree with you.
    Senator Schumer. Well, explain to me--
    Mr. Cordesman. Are there any examples in Wahhabi teaching 
which I completely disagree with? Yes. Do I watch, as Senator 
Leahy pointed out, similar examples of extremism and poor 
rhetoric on the parts of Christians and does that lead me to 
generalize about Christian teaching in the U.S.?
    Senator Schumer. No one is generalizing, sir, about Muslim 
teaching or Islam.
    Mr. Cordesman. I am talking about--
    Senator Schumer. I am asking you about Wahhabism.
    Mr. Cordesman. And that is specifically what I am 
answering. I have been going in and out of that country for 
more than 30 years.
    Senator Schumer. And you think Wahhabism, the main thrust 
of Wahhabism is not what these two folks have been talking 
about, that hatred, that inferiority of non-Muslims and non-
Wahhabi Muslims isn't part of the warp and woof of Wahhabism?
    Mr. Cordesman. I think it is part of the margin. I think it 
is part of the extreme views in Saudi Arabia.
    Senator Schumer. When anyone writes to the Saudi government 
and says, take this off your website, I would like to know--I 
mean, your main testimony, as I watched it, has been they are 
not doing as many bad things as they used to. I would like to 
know affirmative things they do to stop all of this. I believe 
in affirmative action here in America, OK, even though--I 
believe it because we have had a long, tawdry history about 
race and we ought to make up for it until there is equality.
    Well, the Saudis have had a long, tawdry history--Wahhabism 
has a long, tawdry history in terms of this hatred. I mean, as 
you know, it was OK. Terrorism against Jews in Israel was 
perfectly OK, women, children. There are countless statements 
where Saudi leaders have said that is OK, and only after 9/11, 
when it started being directed at other people, did they 
officially sort of change their view. I think it was a short 
step from one to the other.
    Shouldn't they be, if they have changed, shouldn't there be 
some affirmative signs? Shouldn't they take a website like this 
down? Saying we are doing less of bad things isn't good enough. 
Can you point to some affirmative things that they are doing to 
undo the decades of hatred leading to terrorism that has been 
spewed from large parts, in my judgment, of Saudi society and 
of Wahhabism?
    Mr. Cordesman. First, Senator, to just correct the record, 
Saudi Arabia officials from King Fahd's time on were very clear 
about not supporting violence against Israel and supporting a 
peace plan--
    Senator Schumer. Weren't there leaders in the Saudi 
government that did support it, interior ministers and others--
    Mr. Cordesman. I think--
    Senator Schumer [continuing]. Appointed by King Fahd?
    Mr. Cordesman. There was certainly Prince Naif who 
criticized Israel. He did not support, to my knowledge, any 
attacks on Jews or men and women or terrorism. And indeed, in 
the case which Mr. Emerson quoted, he went on from attacking 
Zionist causes to promptly attack the Muslim Brotherhood. So it 
is probably useful to keep things in context.
    But to go to your specific question--
    Senator Schumer. But Wahhabism attacks many branches of 
Muslim, too.
    Mr. Cordesman. It is an extraordinarily puritanical belief, 
and having encountered a few puritanical Jews and Christians, I 
don't like the level of inherent discrimination on any of them.
    But you asked about specific measures, and in my written 
testimony, I point out there has been a really significant 
advertising campaign. It has been mixed with efforts to have 
television shows and to deal with the overall educational 
reforms. This is a matter of public record. You can just look 
at the part of the campaign that took place very openly in 
Saudi Arabia. It started in February of this year. So that is 
something that the Committee can easily confirm.
    The efforts to actually reeducate or discipline imams, 
which are not going to be something which you see advertised in 
every Saudi newspaper, have been real. The efforts which began 
after 9/11 by the Ministry of Education, and particularly with 
Prince Salman's leadership, but which have now taken on a 
considerable momentum, have begun to change the textbooks.
    Do I like the rate at which this progress has occurred? No, 
I don't. Do I believe that this progress is occurring in many 
of the countries which have similar kinds of anger and hatred 
at the level I would like to see? No, I don't. But is there 
progress? Yes, and I have given you three tangible cases.
    Senator Schumer. Without specifics. I mean, I guess they 
are in your testimony. I did not read it. Do you have 
specifics--
    Mr. Cordesman. I have given you--
    Senator Schumer [continuing]. Because you asked for 
specifics. You wanted specifics in reference to Senator Kyl's 
question. Give me the most specific positive thing. What do 
these advertising campaigns say? Do they say it was a mistake 
that many people advocated killing of Jews?
    Mr. Cordesman. The problem you have, Senator, is you began 
with the thesis that many people are going around advocating 
the killing of Jews. I have been in Saudi Arabia on many 
occasions. I haven't heard that. And I have been there with 
colleagues of mine that are Jewish.
    Senator Schumer. In Israel? In Israel? You haven't heard 
that in Saudi Arabia?
    Mr. Cordesman. I have heard people attack me in Saudi 
Arabia for being Jewish and for being a supporter of Israel. I 
have heard them use rhetoric which was about as personally 
vicious as you can get. Did they represent any significant 
number of the Saudis that I deal with and have dealt with over 
the years? No.
    Senator Schumer. Could I ask Mr. Emerson to respond--
    Chairman Specter. You are only two-and-a-half minutes over 
time, so the answer is yes.
    [Laughter.]
    Senator Schumer. Thank you, Mr. Chairman. You are always 
fair.
    Mr. Emerson. Thank you. I think the bottom line here is 
that, one, the institutional leadership of the regime, the 
family, the NGO's that were set up, the Saudi industrials who 
operate at the sufferance of the regime itself--this is not a 
totally capital, free market country--have all been involved in 
promoting a severe puritanical version of Islam, but which has 
called Jews and Christians infidels for years. The question 
is--I am amazed that this would be compared to the current 
situation with Judaism and Christianity because the bottom line 
is we in the West have largely excised much of our religious 
fundamentalism. Yes, there are fundamentalists in every 
religion and there are terrorists in every religion, but the 
radical Islamic theology as promoted by Saudi Arabia is the 
centerpiece and has been.
    Now, the question is, have they changed, and the mark for 
that is the metrics. The other mark is whether they will own 
up, as you appropriately asked, whether they will own up to the 
fact that they did promote this, and I can give you several 
examples that, unfortunately, show an effort to basically lie, 
fabricate stuff.
    This year, in April, NBC obtained a tape of a prominent 
Saudi sheikh, the Chief Justice of Saudi Arabia's Supreme 
Judicial Council, exhorting young Muslims to go to Iraq to 
participate in the jihad against American forces. NBC asked 
Saudi officials here in the United States for their reaction. 
Do you know what their response was? The tape was fabricated, 
that this was digitally created, enhanced. They warned them 
that this was a total made-up tape. So NBC contacted the sheikh 
directly in Saudi Arabia, who admitted on the phone that he 
actually made the tape himself.
    So the reality is, you can see this over and over again 
where the Saudi officials deny any support for extremism, any 
anti-Semitism, anti-Christian dogma. This year, there have been 
dozens of Christians arrested, dozens of them arrested for 
practicing Christianity. If you asked the Saudi government, are 
you persecuting Christians, they say, no, there is total 
freedom. These are lies.
    And the fact is, unless we are willing to call them on the 
carpet, then we can pretend that there is no disagreement. We 
will all get along. I call it the ``kumbaya'' culture. Everyone 
will have a nice day and we will go along with our business, 
but then business will continue as usual. That is the problem.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Schumer.
    Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate my colleague, Senator Schumer. I worked with him on 
this issue of Saudi Arabia for some period of time and he has 
been a very effective advocate and good advocate.
    I have got a pointed question. I wondered how the Saudis 
recently reacted officially when the Iranian President called 
for the State of Israel to be wiped off the face of the Earth, 
or of the map. What was the official Saudi response? Did they 
condemn this statement by the President of Iran?
    Mr. Cordesman. I don't believe they condemned it directly. 
I believe what they did was to call for a peace settlement 
between the Arabs and Israel. I don't think you are going to 
see direct confrontation in the Gulf region, Senator, if people 
can avoid it. It was a problem in terms of their contact with 
the Iranians.
    Senator Brownback. Didn't the Egyptians, though? Didn't the 
Egyptians condemn that statement?
    Mr. Cordesman. They are safely, shall we say, distant.
    Senator Brownback. I doubt the Egyptians would agree with 
that assessment. It seems like this is a tangible one that you 
could have--this is a pretty easy call, pretty direct call. You 
could have said, well, this is an inappropriate statement for 
any leader, to call for another country to be wiped off the 
map. No official statement out of the Saudis?
    Mr. Cordesman. Frankly, Senator, I don't know what their 
official statements have been on this. I do know that they 
reacted, and it was not in a positive way. But I think you have 
to understand just how tense things in the Gulf are right now. 
This is a matter of countries having to deal with an 
extraordinarily unstable neighbor, undergoing major political 
change, where at this point in time, they don't even know what 
nature of regime they are dealing with.
    Senator Brownback. Ms. Shea?
    Ms. Shea. Senator, in our publications and textbooks, we 
have seen that kind of sentiment expressed over and over again. 
In, for example, a fourth grade Saudi state textbook, and 
again, this is not a cleric or a sect somewhere, this is the 
government, its own publications, they talk about Israel as 
being a thorn in the back of the Muslim nations and a window 
through which colonialism can sneak up among the ranks of the 
Muslims to work on dividing them and light the fire of hatred 
between them. The Muslims will not rest until they cutoff this 
disease and purify the land of Palestine from the plague of 
Zionism and its rightful owners reclaim it, and so on and so 
on.
    Senator Brownback. That is a fourth grade text?
    Ms. Shea. That is a fourth grade textbook that we found in 
New Jersey from Saudi Arabia, and we have a number of other 
examples, as well, so it is the same kind of sentiment. These 
are still in circulation. The government claims--
    Senator Brownback. Ms. Shea, do you know if those 
statements have been repudiated by the Saudi government at any 
point in time in recent history?
    Ms. Shea. I don't know that.
    Senator Brownback. So, actually, it would be a consistent 
statement of what the President of Iran stated for what has 
been in the textbooks sponsored by the Saudi government?
    Ms. Shea. That is correct. They say that they are going to, 
or that they already have changed the textbooks. I met with the 
textbook reeducation reformers in Saudi Arabia--they came here 
last year, last December--and they said that, actually, reform 
wasn't even necessary. It was all a misunderstanding.
    After our report came out, our study, the government--the 
crown prince at that time appointed a new Minister of 
Education. The only problem is, he appointed Mr. Obeid, who had 
been the Secretary General of the Muslim World League, which 
the Treasury Department says is an agency of grave concern for 
its links to extremism.
    The Gulf Institute, which is an NGO based here in 
Washington, started by Saudi dissidents, have the new 
curriculum that is being used inside Saudi Arabia for 2005-06, 
K through 12, and they say it is really just as bad. They are 
going to be coming out with a new report soon, as soon as they 
get it all translated.
    Senator Brownback. I will stay within my time. It seems to 
me, basically, your best appraisal of a group or entity or even 
an individual is fruit, what it produces, what comes out of 
that. It seems like we have seen a lot of bad fruit here, and 
then when you get this particular type of statement that was 
made by the President of Iran, that I think most of the world 
gasped when he said something like this, and then you look at a 
regime that doesn't repudiate it, and not only that, apparently 
its textbooks actually teaches it to its children, this is not 
a good fruit situation.
    I appreciate, Mr. Cordesman, what you are representing. I 
have worked with the Saudis over the years. I have chaired that 
Subcommittee in the Foreign Relations Committee. I have 
traveled the region. I have also traveled and seen their 
product in the region, in that region and particularly in 
Central Asia, was an area I noted the most. It was an area of 
change and foment. I traveled it in the mid- and late-1990's. 
There were two countries that were funding the most disruptive 
type of behavior in the Stands region and they were Iran and 
Saudi Arabia. Virtually everyplace you would go, there would be 
some funded group by the Saudis or the Iranians that were 
pushing very troubling, difficult messages in a region that was 
fomenting.
    It just seems like what we have taken place lately is some 
movement away from that, or maybe some movement toward more 
subtlety, but I haven't detected yet that the central message 
has changed at all. It may be more subtle, but it hasn't 
changed the message.
    Mr. Chairman, thank you.
    Chairman Specter. Thank you, Senator Brownback.
    I am going to ask unanimous consent to make a part of the 
record an article written by Mr. Daniel Pipes and published in 
the New York Sun on March 29 of this year which contains a 
number of statements which bear on what we are looking at, and 
we are going to verify the accuracy of them.
    It is represented that the Council on American-Islamic 
Relations published--the Freedom House published information on 
the Council on American-Islamic Relations which contained 
repeated references to anti-Semitism and neo-Nazi philosophy 
and that the head of the Canadian Islamic Congress, Mohamed 
Elmasry, publicly endorsed the murder of all Israelis over the 
age of 18, and that in New York City, an investigation by the 
New York Daily News in 2003 found that books used in the city's 
Muslim schools were, quote, ``rife with inaccuracies and 
sweeping condemnations of Jews and Christians, and triumphant 
declarations of Islam's supremacy,'' and that in Los Angeles, 
the Omar Ibn Khattab Foundation donated 300 Korans entitled The 
Meaning of the Holy Koran to the city school districts in 2001 
that had to be pulled from the libraries because of anti-
Semitic condemnations.
    We have had the representations by Mr. Al-Jubeir that the 
textbooks have been modified and it is a question which we are 
going to continue to pursue, Professor Cordesman, to see what 
the current status is.
    The legislation on the Saudi Accountability Act calls for 
Saudi Arabia to vastly improve cooperation with the United 
States in the investigation of terrorist networks and closing 
all organizations which fund, train, and incite terror; block 
all funding from private Saudi citizens and entities to Saudi-
based offshore terrorist organizations; and to deal with the 
issue of the propaganda in the school books. So we are going to 
be pursuing that subject.
    Mr. Emerson, I am advised that you have some information as 
to what King Abdullah had to say about those who were behind 
the 2003 attacks on Riyadh in Saudi Arabia?
    Mr. Emerson. Yes, Senator. I will refer to it in a second 
here. I just wanted parenthetically to make a comment to let 
you know that sitting behind me is a very prominent and 
courageous Muslim religious leader, Sheikh Ahmed Subhy Mansour, 
who has prepared testimony that I would like to ask to be 
submitted for the record, and who has been a graduate of Al 
Azhar University. He is now living in the United States, having 
been granted political asylum here. But he is very familiar 
with and an expert on Wahhabist ideological views as well as 
the consistency of the Saudi government in continuing to 
promote it in publications and online. I urge him to be used as 
a resource by this Committee.
    Chairman Specter. We would be pleased to receive that 
testimony and it will be made a part of our record.
    Mr. Emerson. In response, in 2004, after there was an 
attack in the city of Yanbu, Crown Prince Abdullah asserted 
that, quote, ``Zionist elements,'' quote, ``it has become clear 
now that Zionism is behind the terrorism actions in the 
Kingdom. I can say that I am 95 percent sure of that.'' And 
then followed up by that was Saudi Foreign Minister Saud Al-
Faisal, who said that the al Qaeda attacks were financed by 
Israel.
    That was followed up on a CNN interview when Adel Al-Jubeir 
was interviewed by CNN anchor Wolf Blitzer, who asked him about 
the allegations that there was a secret Zionist plot behind 
supporting al Qaeda attacks against the regime. I have included 
the entire transcript of the exchange between the CNN anchor as 
well as Mr. Al-Jubeir because it is exceptionally instructive, 
because Al-Jubeir consistently tries to equate Israel with al 
Qaeda. He is given an opportunity finally at the very end to 
recant and disavow those comments and never once takes the 
opportunity to do so.
    Chairman Specter. Professor Cordesman, would you care to 
comment on that?
    Mr. Cordesman. All I can say, Senator, is that in working 
with people in Saudi Arabia, in the Ministry of Defense, in the 
Ministry of Interior, in the Foreign Ministry, I never once had 
anybody suggest for a moment that there was any Zionist support 
for al Qaeda. I never heard that talking to Prince Turki in 
conversations that go back 7 years. I never heard it in talking 
to the Assistant Minister of Defense in Saudi Arabia or to the 
son of the Minister of the Interior.
    They have focused on what I think they recognize as not 
only an internal problem, but as one which surrounds them in 
the region. Whatever has been said here is not something that 
has been raised with me nor is it typical of any of the people 
that I have been dealing with who are involved in 
counterterrorism operations in the Kingdom.
    Chairman Specter. Professor Cordesman, I can easily 
understand why it wouldn't be raised with you. On the 
conversations that I have had with the Saudi officials, when I 
talked to King Abdullah about Khobar Towers, no bellicose or 
inflammatory statements were made. In talking to the Saudi 
Ambassador to the United States recently, he called me and 
wanted to be available to answer any questions, and we do have 
a substantial number of questions for him, no statements like 
that are made.
    But when you have the repetition of comments by ranking 
Saudi officials, including King Abdullah, about the Zionists 
being behind al Qaeda, it is antagonistic, inciting propaganda 
at the highest levels. It can't be denied.
    Mr. Cordesman. Senator, may I make a brief response?
    Chairman Specter. Sure.
    Mr. Cordesman. I think what bothers me a little about this 
is that this is the same King Abdullah which, as Crown Prince, 
took with considerable courage the initiative creating a new 
peace initiative, and not simply cosmetically, but pushed it 
through the Arab League. It is the same Saudi Arabia which has 
put together what will be a conference in December of this year 
in Mecca of the OIC, a summit meeting which will be trying to 
deal with these issues of extremism and terrorism.
    I can't say that there are not within Saudi Arabia many 
things that I don't like. That is something that I have lived 
with in all my visits to the Kingdom. But I do see, perhaps, a 
lack of balance that, is not necessarily going to help us in 
persuading the Saudis to change.
    Chairman Specter. Well, Professor Cordesman, shouldn't we, 
while trying to maintain a positive relationship with Saudi 
Arabia, identify to them in a very direct way the things you 
characterize you do not like? Shouldn't we confront the King 
with the statement which I think is on the record and not 
denied about his being 95 percent sure that Zionists were 
behind the al Qaeda attacks? Should we ignore those matters, or 
should we deal with them in a very direct way?
    Mr. Cordesman. I don't think we should ignore them at all, 
Senator. I have great reservations about legislation. I have no 
reservations about the Congress putting constant pressure on 
the administration and the Saudis to respond. My fear with 
legislation is that often what happens is that it is seen as 
counterproductive inside the Kingdom, where the threat of 
legislation is not.
    I think you have tools that you also could use. One of them 
is to expand the role of the Human Rights Report and require 
that it deals with reporting in these areas. It is to expand 
the State Department Report on Terrorism. The advantage of 
these kinds of forums is they cover all countries, and I do not 
believe that Saudi Arabia should be exempted from any of this 
kind of review.
    Second, I think that there is a very real reason to have 
much stronger embassy teams and to have the Congress put much 
more pressure to get people into embassies like Saudi Arabia 
who actually work in the field to deal with the countries 
involved, and I could give you a list of others measures, as I 
have in the testimony.
    So in no sense am I saying that you should not put pressure 
here. I think it is vital here and it is vital in all of the 
countries where terrorism and extremism are a problem.
    Chairman Specter. I am pleased to hear you say that it is 
an appropriate area for Congress to apply pressure and that you 
think the introduction of the legislation is appropriate 
pressure. You just stop a little short of enacting the 
legislation.
    When the Syrian Accountability Act was started, it was a 
pressure point, but as evidence mounted as to what Syria was 
doing and the evidence has continued to mount, that legislation 
was finally enacted, and the administration took the position 
you do. Don't legislate. Don't tie the hands of the 
administration. But finally, at the very end, the Bush 
administration agreed with the Syrian Accountability Act.
    These are not easy matters. There is great concern that if 
Bashir Asad falls, that there will be a replacement causing 
more problems for the United States. I think we have to 
continue to work with the Syrian government, notwithstanding 
all of the problems that they have presented, especially on 
being transit ports for insurgents going into Iraq. But while 
we continue to work with them, let us not be bashful about 
confronting them. I don't think we are too far apart on that 
point.
    We are going to have very substantial additional questions 
for the Saudi government. I will take up the Saudi Foreign 
Minister on his invitation to respond to questions. We will 
have more questions for him than we had for the entire panel.
    Ms. Shea, did you have something more you wanted to say? 
You were looking for some responses to my question earlier. If 
you want to add something, we would be pleased to hear it now.
    Ms. Shea. OK. We have one of the books. The anti-Semitic 
passage in one of the books we found here issued by the Saudi 
government, Ministry of Education, Riyadh: ``The Jews lured 
women to go to work in the factories. When the number of 
working women increased, they lured them into wearing makeup 
and revealing clothes to corrupt their morals and to corrupt 
young men with them.''
    So that is the tenor of this stuff. It is not against the 
policies of Israel. It is not on a political level. It is just 
truly anti-Semitic and awful.
    Mr. Chairman, also, I would like to point out that the GAO 
issued a very important study at the request of some of the 
members of the Senate, and they released it in September. In 
it, they found as of July 2005, agency officials, meaning 
across interagency officials, whether it is State or Treasury, 
did not know if the government of Saudi Arabia had taken steps 
to ensure that Saudi-funded curricula or religious activities 
in other countries do not propagate extremism. I think that is 
a very important point, and I share Mr. Cordesman's view that 
this should be reported on in the religion reports and the 
human rights reports and the U.S. Government should press Saudi 
Arabia for an accounting. I think that you should include it in 
your Act, as well. Thank you.
    Chairman Specter. Mr. Bakali, would you care to add 
anything at this point?
    Mr. Bakali. No, Senator. We just wanted to differentiate 
the fact that the indoctrination by Saudi would be one thing. 
We are not here to comment on it. But the fact that the 
assumption and extrapolation offered or implying that that 
could be invaded or filled, that is the point we were trying to 
make, that the indoctrination by Saudi of these few books or 
whatever is not necessarily a true picture of the American 
Muslim, to which you have alluded already.
    Chairman Specter. We want to be emphatic that there is no 
condemnation or criticism of the Muslim community in the United 
States. We welcome your participation in our country, as we 
welcome men and women of all faiths or those who choose to 
abstain.
    Thank you all very much for coming. This is, I think, a 
constructive hearing and one which will be ongoing and one 
which we will pursue.
    That concludes our hearing.
    [Whereupon, at 11:37 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
    [Additional material is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T4114.001

[GRAPHIC] [TIFF OMITTED] T4114.002

[GRAPHIC] [TIFF OMITTED] T4114.003

[GRAPHIC] [TIFF OMITTED] T4114.004

[GRAPHIC] [TIFF OMITTED] T4114.005

[GRAPHIC] [TIFF OMITTED] T4114.006

[GRAPHIC] [TIFF OMITTED] T4114.007

[GRAPHIC] [TIFF OMITTED] T4114.008

[GRAPHIC] [TIFF OMITTED] T4114.009

[GRAPHIC] [TIFF OMITTED] T4114.010

[GRAPHIC] [TIFF OMITTED] T4114.011

[GRAPHIC] [TIFF OMITTED] T4114.012

[GRAPHIC] [TIFF OMITTED] T4114.013

[GRAPHIC] [TIFF OMITTED] T4114.014

[GRAPHIC] [TIFF OMITTED] T4114.015

[GRAPHIC] [TIFF OMITTED] T4114.016

[GRAPHIC] [TIFF OMITTED] T4114.017

[GRAPHIC] [TIFF OMITTED] T4114.018

[GRAPHIC] [TIFF OMITTED] T4114.019

[GRAPHIC] [TIFF OMITTED] T4114.020

[GRAPHIC] [TIFF OMITTED] T4114.021

[GRAPHIC] [TIFF OMITTED] T4114.022

[GRAPHIC] [TIFF OMITTED] T4114.023

[GRAPHIC] [TIFF OMITTED] T4114.024

[GRAPHIC] [TIFF OMITTED] T4114.025

[GRAPHIC] [TIFF OMITTED] T4114.026

[GRAPHIC] [TIFF OMITTED] T4114.027

[GRAPHIC] [TIFF OMITTED] T4114.028

[GRAPHIC] [TIFF OMITTED] T4114.029

[GRAPHIC] [TIFF OMITTED] T4114.030

[GRAPHIC] [TIFF OMITTED] T4114.031

[GRAPHIC] [TIFF OMITTED] T4114.032

[GRAPHIC] [TIFF OMITTED] T4114.033

[GRAPHIC] [TIFF OMITTED] T4114.034

[GRAPHIC] [TIFF OMITTED] T4114.035

[GRAPHIC] [TIFF OMITTED] T4114.036

[GRAPHIC] [TIFF OMITTED] T4114.037

[GRAPHIC] [TIFF OMITTED] T4114.038

[GRAPHIC] [TIFF OMITTED] T4114.039

[GRAPHIC] [TIFF OMITTED] T4114.040

[GRAPHIC] [TIFF OMITTED] T4114.041

[GRAPHIC] [TIFF OMITTED] T4114.042

[GRAPHIC] [TIFF OMITTED] T4114.043

[GRAPHIC] [TIFF OMITTED] T4114.044

[GRAPHIC] [TIFF OMITTED] T4114.045

[GRAPHIC] [TIFF OMITTED] T4114.046

[GRAPHIC] [TIFF OMITTED] T4114.047

[GRAPHIC] [TIFF OMITTED] T4114.048

[GRAPHIC] [TIFF OMITTED] T4114.049

[GRAPHIC] [TIFF OMITTED] T4114.050

[GRAPHIC] [TIFF OMITTED] T4114.051

[GRAPHIC] [TIFF OMITTED] T4114.052

[GRAPHIC] [TIFF OMITTED] T4114.053

[GRAPHIC] [TIFF OMITTED] T4114.054

[GRAPHIC] [TIFF OMITTED] T4114.055

[GRAPHIC] [TIFF OMITTED] T4114.056

[GRAPHIC] [TIFF OMITTED] T4114.057

[GRAPHIC] [TIFF OMITTED] T4114.058

[GRAPHIC] [TIFF OMITTED] T4114.059

[GRAPHIC] [TIFF OMITTED] T4114.060

[GRAPHIC] [TIFF OMITTED] T4114.061

[GRAPHIC] [TIFF OMITTED] T4114.062

[GRAPHIC] [TIFF OMITTED] T4114.063

[GRAPHIC] [TIFF OMITTED] T4114.064

[GRAPHIC] [TIFF OMITTED] T4114.065

[GRAPHIC] [TIFF OMITTED] T4114.066

[GRAPHIC] [TIFF OMITTED] T4114.067

[GRAPHIC] [TIFF OMITTED] T4114.068

[GRAPHIC] [TIFF OMITTED] T4114.069

[GRAPHIC] [TIFF OMITTED] T4114.070

[GRAPHIC] [TIFF OMITTED] T4114.071

[GRAPHIC] [TIFF OMITTED] T4114.072

[GRAPHIC] [TIFF OMITTED] T4114.073

[GRAPHIC] [TIFF OMITTED] T4114.074

[GRAPHIC] [TIFF OMITTED] T4114.075

[GRAPHIC] [TIFF OMITTED] T4114.076

[GRAPHIC] [TIFF OMITTED] T4114.077

[GRAPHIC] [TIFF OMITTED] T4114.078

[GRAPHIC] [TIFF OMITTED] T4114.079

[GRAPHIC] [TIFF OMITTED] T4114.080

[GRAPHIC] [TIFF OMITTED] T4114.081

[GRAPHIC] [TIFF OMITTED] T4114.082

[GRAPHIC] [TIFF OMITTED] T4114.083

[GRAPHIC] [TIFF OMITTED] T4114.084

[GRAPHIC] [TIFF OMITTED] T4114.085

[GRAPHIC] [TIFF OMITTED] T4114.086

[GRAPHIC] [TIFF OMITTED] T4114.087

[GRAPHIC] [TIFF OMITTED] T4114.088

[GRAPHIC] [TIFF OMITTED] T4114.089

[GRAPHIC] [TIFF OMITTED] T4114.090

[GRAPHIC] [TIFF OMITTED] T4114.091

[GRAPHIC] [TIFF OMITTED] T4114.092

[GRAPHIC] [TIFF OMITTED] T4114.093

[GRAPHIC] [TIFF OMITTED] T4114.094

[GRAPHIC] [TIFF OMITTED] T4114.095

[GRAPHIC] [TIFF OMITTED] T4114.096

[GRAPHIC] [TIFF OMITTED] T4114.097

[GRAPHIC] [TIFF OMITTED] T4114.098

[GRAPHIC] [TIFF OMITTED] T4114.099

[GRAPHIC] [TIFF OMITTED] T4114.100

[GRAPHIC] [TIFF OMITTED] T4114.101

[GRAPHIC] [TIFF OMITTED] T4114.102

[GRAPHIC] [TIFF OMITTED] T4114.103

[GRAPHIC] [TIFF OMITTED] T4114.104

[GRAPHIC] [TIFF OMITTED] T4114.105

[GRAPHIC] [TIFF OMITTED] T4114.106

[GRAPHIC] [TIFF OMITTED] T4114.107

[GRAPHIC] [TIFF OMITTED] T4114.108

[GRAPHIC] [TIFF OMITTED] T4114.109

[GRAPHIC] [TIFF OMITTED] T4114.110

[GRAPHIC] [TIFF OMITTED] T4114.111

[GRAPHIC] [TIFF OMITTED] T4114.112

[GRAPHIC] [TIFF OMITTED] T4114.113

[GRAPHIC] [TIFF OMITTED] T4114.114

[GRAPHIC] [TIFF OMITTED] T4114.115

[GRAPHIC] [TIFF OMITTED] T4114.116

[GRAPHIC] [TIFF OMITTED] T4114.117

[GRAPHIC] [TIFF OMITTED] T4114.118

[GRAPHIC] [TIFF OMITTED] T4114.119

[GRAPHIC] [TIFF OMITTED] T4114.120

[GRAPHIC] [TIFF OMITTED] T4114.121

[GRAPHIC] [TIFF OMITTED] T4114.122

[GRAPHIC] [TIFF OMITTED] T4114.123

[GRAPHIC] [TIFF OMITTED] T4114.124

[GRAPHIC] [TIFF OMITTED] T4114.125

[GRAPHIC] [TIFF OMITTED] T4114.126

[GRAPHIC] [TIFF OMITTED] T4114.127

[GRAPHIC] [TIFF OMITTED] T4114.128

[GRAPHIC] [TIFF OMITTED] T4114.129

[GRAPHIC] [TIFF OMITTED] T4114.130

[GRAPHIC] [TIFF OMITTED] T4114.131

[GRAPHIC] [TIFF OMITTED] T4114.132

[GRAPHIC] [TIFF OMITTED] T4114.133

                                 <all>

</pre></body></html>
